    - yr




      1                            I
                                   I
                                          a"
                                         2@j        'So,                                       NATIONAL SCIENCE FOUNDATION
                                                                                                OFFICE OF INSPECTOR GENERAL
                                         q !
                                          .
                                   3


      z                                                                                           OFFICE OF INVESTIGATIONS

.          I
           L
                                          rO
                                               04o n%\O                               CLOSEOUT MEMORANDUM


                                                                                                                            I
       I
           ,                            Case Number: A08050028                                                                         Page 1 of 1

               I
       I
                                                        A proactive review by NSF OIG identified alleged plagiarism within a proposal submitted by
               I
               I                                 four subjects.' The case was opened for Administrative Investigation.
               I


           I                                             Analysis indicates that the allegedly plagiarized text is de minimus. A majority of the
                                                 similar text comes fiom the same institutional department as one of the Subjects and another
               I

               t
                                                 section is the general language used to describe the field of study addressed in the proposed
                                                 research.
           I
           I
                                                           Therefore, OIG concludes that the allegation of plagiarism is not substantiated.
                   1
                                                           Accordingly, this case is closed.
               I


                       I


                       I

                   I




                       I




                           I




                           I

                           I




                               I




                               I
                               I




                           1           NSF 01G Fonn 2 (1 1/02)
